<html>
<title> - SECURITY ON AMERICA'S COLLEGE CAMPUSES</title>
<body><pre>[Senate Hearing 110-867]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-867

                 SECURITY ON AMERICA'S COLLEGE CAMPUSES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 23, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs






                  U.S. GOVERNMENT PRINTING OFFICE
36-308 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                     Kevin J. Landy, Chief Counsel
                    Beth M. Grossman, Senior Counsel
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
   Robert L. Strayer, Minority Director for Homeland Security Affairs
                    Asha A. Mathew, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk





                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     2
    Senator Warner...............................................    13

                               WITNESSES
                         Monday, April 23, 2007

David Ward, Ph.D., President, American Council on Education......     4
W. Roger Webb, President, University of Central Oklahoma.........     7
Steven J. Healy, President, International Association of Campus 
  Law Enforcement Administrators; Director of Public Safety, 
  Princeton University...........................................    10
Russ Federman, Ph.D., ABPP, Director of Counseling and 
  Psychological Services, Department of Student Health, 
  University of Virginia.........................................    14
Irwin Redlener, M.D., Director, National Center for Disaster 
  Preparedness, Associate Dean for Public Health Preparedness, 
  Mailman School of Public Health, Columbia University...........    18

                     Alphabetical List of Witnesses

Federman, Russ, Ph.D., ABPP:
    Testimony....................................................    14
    Prepared statement...........................................    63
Healy, Steven J.:
    Testimony....................................................    10
    Prepared statement...........................................    57
Redlener, Irwin, M.D.:
    Testimony....................................................    18
    Prepared statement...........................................    72
Ward, David, Ph.D.:
    Testimony....................................................     4
    Prepared statement...........................................    39
Webb, W. Roger:
    Testimony....................................................     7
    Prepared statement...........................................    44

                                APPENDIX

Sheldon F. Greenberg, Ph.D., Associate Dean, School of Education, 
  and Director, Division of Public Safety Leadership, Johns 
  Hopkins University, prepared statement.........................    79
Jeff and Debbie Shick, parents of David Shick, a student killed 
  on campus, prepared statement..................................    83
Sheila Matthews, National Vice President and Co-Founder, 
  Ablechild, letter dated April 20, 2007, with attachments.......    86
Responses to Post-Hearing Questions for the Record from:
    Mr. Healy....................................................    94
    Dr. Redlener.................................................    98
    Mr. Webb.....................................................   101

 
                 SECURITY ON AMERICA'S COLLEGE CAMPUSES

                              ----------                              


                         MONDAY, APRIL 23, 2007

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Collins, and Warner.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. This hearing will come to order.
    Good afternoon and thanks to everyone for being here.
    Today, for the first time since the awful outburst of 
violence and death on their beautiful campus last Monday, 
students at Virginia Tech are returning to their classes. But 
neither they nor the rest of our country, including, of course, 
the Members of this Committee, can return to where we were 
before that terrible tragedy, certainly not the families and 
friends of the 32 people who were murdered in Blacksburg, 
Virginia. Our hearts go out to them and our prayers do, as 
well.
    This afternoon's hearing is not about what happened at 
Virginia Tech last Monday. It's about what we can do together 
to prevent anything like it from ever happening again on any 
other American college campus. Virginia's Governor, Tim Kaine, 
has appointed a commission that will thoroughly investigate and 
review the events of last Monday, and that is the best place 
for such a review to be carried out.
    We have convened this hearing not to investigate but to 
educate, to help answer the questions that so many college 
students and faculty, their families, friends, and surrounding 
communities are asking in the aftermath of Virginia Tech. Are 
America's colleges and universities doing enough to maintain 
security? What are the best ways to do that? What methods and 
technologies does experience tell us have been most effective 
in keeping college communities safe? How can campuses be more 
alert to the needs of emotionally troubled students and the 
dangers that they may pose?
    How can those students best be helped before they hurt 
themselves or others? Are there Federal laws or programs that 
should be changed to help America's colleges and universities 
maintain better security on their campuses?
    In short, we are here to begin a discussion after Virginia 
Tech to make sure that together we are doing everything we 
possibly can to prevent any other campus and any other students 
and their families from experiencing the nightmare and loss 
Virginia Tech experienced last Monday.
    I thank the witnesses who have come here on short notice, 
and I look forward to their testimony with confidence that 
their considerable and relevant experience will be very helpful 
to this Committee.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. As you mentioned, 
our hearts go out to those who died or were wounded or who lost 
family members or friends in that terrible campus attack of a 
week ago. Their pain reminds us that there are more than 4,100 
colleges and universities in this country with more than 16 
million students. And as Cornell University's Director of 
Campus Security has warned, ``This type of thing could have 
happened anywhere.''
    Unfortunately, history confirms that statement is true. 
Killers have targeted students of all ages, not only in our 
country but in Great Britain, Israel, Russia, Afghanistan, and 
elsewhere. The murderers have ranged from disturbed individuals 
to terrorist squads, and their weapons have included guns, 
rocket grenades, and explosives.
    Sadly, this threat is not new. Eighty years ago this May, a 
disgruntled school board member in Michigan blew up that town's 
school, killing more than 40 people, most of them children.
    As we will hear today, colleges and universities defy easy 
answers for law enforcement officials and first responders. 
Typically, these institutions contain many buildings and 
hundreds, even thousands, of students, teachers, staff, and 
visitors who are moving about freely and who, at larger 
institutions, are likely to be strangers to one another. Campus 
safety officers confront the daunting challenge of defending 
campuses that are largely open to anyone who chooses to walk 
in, whether it is a troubled student with a gun or a terrorist 
with a suicide belt.
    Our college campuses, when one starts to think about it, 
are in many ways attractive targets for those who intend to 
harm Americans. Besides educating our most precious resource, 
our sons and our daughters, research universities can house 
nuclear reactors, anthrax research facilities, and stocks of 
dangerous materials that could cause injury and death if seized 
by the wrong hands. Tens of thousands of people gather on 
college campuses in stadiums to enjoy concerts or sporting 
events.
    Although campus security is primarily a State, local, and 
institutional responsibility, the Federal Government plays a 
role in strengthening security through the Department of 
Homeland Security, the Department of Education, the Secret 
Service, the FBI, and other agencies. It is our hope that 
today's hearing will shed light on what the Federal Government 
can do to help bolster the security of the 4,100 colleges and 
universities across the Nation.
    We should also consider the issue of campus security in the 
broader context of homeland security. As potential targets for 
mass murderers, educational institutions have vulnerabilities 
similar to those of shopping malls, theaters, and 
transportation hubs--that is, large numbers of people and 
relatively open public access. And not even a police state 
could guarantee security at the thousands of sites like that 
across this country.
    But we can do more in a free society to identify best 
practices, to disseminate them, to help with their 
implementation, and to assess their effectiveness. As my good 
friend, the University of Maine Public Safety Chief, Noel 
March, has pointed out to me--and I know that he speaks very 
well of one of our witnesses today, Mr. Healy--the 
International Association of Campus Law Enforcement 
Administrators is now cooperating with the Department of 
Justice on developing a National Center for Campus Public 
Safety that would work toward those goals. We can work with our 
first responders to ensure more effective responses. Campus 
communications systems could be improved to allow for more 
effective alert.
    Detecting and preventing threats to campus communities, 
while being duly mindful of personal freedom and privacy 
issues, is also at least as important as being ready to mount 
an effective and rapid response to an attack. And that is an 
area that this Committee has also spent a great deal of time 
on. Perhaps we can promote better use of homeland security and 
community policing techniques to identify potential threats 
more effectively, as well as providing more mental health 
counseling and intervention.
    As a member of the Senate's Bipartisan Mental Health 
Caucus, I am keenly aware of both the terrible effects of 
serious mental illness, but also of increasingly effective 
means of treatment. One of the difficult issues that we all 
need to wrestle with is whether or not the laws and the 
regulations that are needed to protect sensitive medical 
information make it too difficult to share vital threat 
information with campus law enforcement officials.
    But perhaps our greatest service to our colleges and 
universities would be to make sure that they are integrated 
into emergency preparedness and response planning for all 
hazards. For if schools are better prepared for natural 
disasters and terrorist attacks, then they will be better 
prepared to deal with the random and senseless acts of violence 
like the one that visited such awful sorrow on the families and 
friends of the Virginia Tech victims.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Collins. We 
will go to the panel of witnesses now.
    Again, I thank you for coming on relatively short notice. 
This is an extraordinarily experienced and diverse panel.
    While you are addressing a committee of the U.S. Senate, I 
wanted to ask you to have it in your mind or to speak as if you 
were addressing the parents and students that we have met in 
the last week, that probably each of you have come across in 
the last week, who have asked, ``Are we safe on our college 
campus? And is there more that can be done to make sure that we 
are?''
    We are going to begin first with David Ward, Ph.D. Dr. Ward 
is currently President of the American Council on Education 
(ACE). From 1994 to 2000, he served as Chancellor of the 
University of Wisconsin at Madison, during which time he was 
responsible for managing the university's response to a number 
of crises, including a stampede of students at a football 
stadium. ACE represents approximately 1,800 accredited degree 
granting colleges and universities and higher education related 
associations. Dr. Ward, we are grateful that you are here, and 
we look forward to your testimony now.

STATEMENT OF DAVID WARD, Ph.D.,\1\ PRESIDENT, AMERICAN COUNCIL 
                          ON EDUCATION

    Mr. Ward. Thank you, sir. Chairman Lieberman, Ranking 
Member Collins, and Members of the Committee who may eventually 
join us, I want to thank you for this opportunity to testify 
today about the important and timely issue of emergency 
preparedness on our college and university campuses.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Ward appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    Let me say at the outset the security of students, faculty, 
and staff is a preeminent concern of every college and 
university president, and my association is essentially a 
representation of those presidential roles in higher education.
    On the other hand, the strength of the presidency is 
reflected in the team that they lead. And many of the other 
testimonials you hear today will be from the people who are, in 
a sense, in the trenches developing the plans and providing the 
expertise the presidents rely on. But ultimately it is the 
judgment of presidents that often is determinative of the 
response and the planning that goes on.
    The events of September 11, 2001, certainly changed the way 
campuses, as well as the rest of the country, view the issue of 
security. Four years later, the devastation wrought by 
Hurricane Katrina challenged the survival of our institutions 
in New Orleans and the Mississippi Delta as never before. And 
of course, last week's tragedy at Virginia Tech has put these 
issues at the forefront of our Nation's consciousness 
tragically once again.
    In thinking about this topic, I think it would be useful to 
put the issue of emergency planning as it relates to colleges 
and universities in some context and to identify those factors 
that make securing our campuses particularly challenging. We 
are not, in a sense, a firm. We are not a defined entity in 
space. And I think we need to keep reminding ourselves how 
complex they really are.
    Not only are universities complex, but they are also open 
by design. The campus that I supervised in Madison covered, in 
its various sections, almost 10,000 acres. It enrolled 42,000 
students, employed 16,000 people. And on any given day, there 
were thousands of visitors either attending extension classes 
or other functions on campus. This mobility is a characteristic 
that is equally pronounced on campuses with a large number of 
commuter students so that the community is in constant motion. 
Knowing where they are at any time is extremely difficult. And 
the campus itself is multi-centered.
    Colleges and universities are complex places with a great 
number and variety of facilities--dormitories, dining halls, 
classrooms, offices, power plants, laboratories, field houses, 
and stadiums. In Madison, we had 600 buildings, a hospital, a 
medical school, a research park, a nuclear reactor, an 80,000-
seat football stadium, and a 17,000-seat fieldhouse, just for 
starters. So they're really more like small towns than they are 
even like a shopping center or an airport.
    Colleges and universities also have large numbers of 
faculty and staff. In many places they are the largest 
employers in the area. Their defining characteristic is that 
they serve a population--and this, I think, is important--that 
consists predominantly of young adults whose attitudes and 
behaviors often differ significantly from workplace employees 
or even elementary and secondary school students.
    From my own experience as chancellor, I can tell you that 
crises can happen when you least expect them. I think crisis 
management has become one of the defining skills that all 
chancellors and presidents surely now need to have.
    In my case, as has been mentioned, I faced an unexpected 
challenge of dealing with a post-game crowd surge at a football 
game that resulted in 70 students being treated for injuries in 
our hospital, 15 of whom were, in fact, so seriously injured 
that it was thought that we might not be able to save all of 
them. They were all saved by the enormous and effective 
treatment at our university hospital by our trauma surgeons. 
But we did use that incident to spur improvements in our 
communications plan, upgrade the stadium facilities, and 
augment medical and security staff at such events.
    Without any hesitation I can tell you that the safety and 
well-being of students, faculty, and staff is a subject that 
keeps all presidents up at night, whether the campus sits on 
the San Andreas fault like the University of California at 
Berkeley, on a coastal floodplain like Dillard University, or 
in Lower Manhattan like Pace University which, in addition to 
its main campus, had classrooms in one of the World Trade 
Center buildings.
    While all campuses engage in serious emergency preparedness 
and contingency planning, there is no question that security 
efforts were dramatically stepped up on all our campuses 
following September 11, 2001. The same kind of increased 
scrutiny will take place now, as well, as each of our colleges 
and universities tries to make sense of the unspeakable tragedy 
at Virginia Tech by sharing the kind of research and 
information that will be gathered in its wake and using it as a 
means to help avert future disasters.
    A careful planning effort is, of course, one of the key 
reasons why our Gulf Coast institutions accomplished the smooth 
evacuation of all of their student and faculty when Hurricane 
Katrina struck. Over 120,000 students were able to register at 
other institutions within 2 weeks of that disaster.
    In contrast to the extensive death toll caused by the storm 
throughout the region, the evacuation and reregistration of 
more than 100,000 students and faculty from 30 institutions was 
achieved without a single loss of life and is an unheralded 
success story of that particular disaster.
    Even as the tragic events of the past week were unfolding, 
many campuses around the country took immediate steps to place 
their own institutions on a heightened state of alert. Why? As 
the campus chief at the University of Texas said, ``A concern 
for every law enforcement official in the Nation right now is 
copy cats.''
    We will continue to learn more about what added security 
measures campuses intend to take to bolster their own planning 
and prevention efforts, but they have each begun the task of 
re-examining the needs of their campus. Rice University is 
attempting to work with residential college leaders to identify 
students who appear to be under extreme stress so that they can 
be referred to counseling. This is truly one of the great legal 
challenges of our campuses.
    The University of Memphis plans to build a system that will 
act as a schoolwide intercom. The University of Iowa is 
weighing a similar outdoor system. The College of the Desert 
has a new phone system that allows it to quickly send out 
announcements to every phone on campus and a backup loudspeaker 
system when phone contact is not possible.
    Nearer to home, at Johns Hopkins University, 100 smart 
cameras have been installed on campus that are linked to 
computers which will alert campus security and Baltimore City 
Police when suspicious situations arise.
    The International Association of Campus Law Enforcement 
Administrators, who we will hear from, is the professional 
association and accrediting agency which has been instrumental 
in developing best practices, training materials, and guidance 
for the campus community in matters of security. We support 
their recommendation to take the next logical step toward 
strengthening campus first responder capabilities.
    In the end, it comes down to planning. It is essential that 
every campus have an emergency plan in place that identifies a 
core response team, a communications plan, and a way to 
implement the movements of emergency and other staff in a 
variety of scenarios.
    No one wants to consider the unthinkable. But in our post-
September 11 world, all of us must consider it and plan for it. 
This includes college and university presidents. We have 
already made great strides to upgrade campus security and 
ensure that our world-class institutions remain safe places to 
live, learn, and innovate. The thing we have to remember is 
that we cannot rest on our laurels; as the events of Virginia 
Tech have shown, there is always some new and tragic episode 
around the corner.
    And ultimately, I believe, there are two big problems that 
we face. One of them is that we are, by nature, rational 
communities and the worst disasters are, in fact, the result of 
levels of distress in human beings that are often not 
susceptible to rational treatment. And how we deal with this 
challenge where the predictability of so many things on the 
campus we can plan for, but the unpredictable, which is often 
built in to some of these human tragedies, is very hard to 
cater for.
    And finally, not only are our college campuses extremely 
complicated, very large, and almost different from any other 
institutional form, but they are also very different 
themselves. The plan that might meet the needs of a small 
liberal arts college, great research university, a community 
college, something that is in a downtown setting or in a rural 
setting, all will require some subtle differences in how they 
develop their emergency planning. One size in our response will 
certainly not fit all.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Dr. Ward. That is a 
very good beginning to the discussion.
    Our next witness is W. Roger Webb, who is currently the 
President of the University of Central Oklahoma, a public 
university of approximately 16,000 students in the greater 
Oklahoma City area.
    Mr. Webb is testifying on behalf of the American 
Association of State Colleges and Universities, which 
represents over 400 public 4-year colleges and universities.
    Of real interest to us is that before being a college 
president, which Mr. Webb has been for 20 years, he was the 
Commissioner of Public Safety for the State of Oklahoma and a 
member of the State Highway Patrol.
    Thanks very much for being here. We look forward to your 
testimony.

STATEMENT OF W. ROGER WEBB,\1\ PRESIDENT, UNIVERSITY OF CENTRAL 
                            OKLAHOMA

    Mr. Webb. Thank you, Chairman Lieberman and Ranking Member 
Collins.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Webb appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    Thank you for this hearing and thank you for your opening 
statements which very well, I think, set out the issues that we 
face today.
    Let me tell you about an experience that I had just last 
Friday, which drove home to me the significance of these 
issues. I was walking across our campus during the noon hour, 
and I ran into a campus tour of approximately 25 students, many 
of them there with parents. They were checking out our campus, 
making decisions about where to go next fall.
    As the tour guide introduced me to the group, he asked are 
there any questions of the president? One lady, a mother, 
quickly held up her hand and said, Mr. President, we are 
seriously thinking about your university for next year. But I 
have one question for you. And that is will Amanda be safe on 
your campus?
    Mr. Chairman, that is the question that parents all over 
America are asking today as they prepare to send their sons and 
daughters off for what should be the best 4 years of their 
life.
    She did not ask me about the library. She did not ask me 
about our wireless campus. She did not ask about any academic 
programs. She was, first of all, concerned about the safety of 
her daughter.
    I entered academia after 12 years in law enforcement, the 
last 4 years serving as Commissioner of Public Safety for 
Oklahoma. Perhaps this makes me one of the few college 
presidents in America who once carried a badge and gun and now 
serves as a university president. Hopefully some of the 
experience that I had living in both worlds, law-enforcement 
and higher education, will provide me some insight as my 
colleagues and I deal with these very complex issues involving 
campus security.
    College administrators today are facing many competing 
priorities. One is the mind set of law enforcement which says 
that to curb crime, to prevent violence, we need a greater 
police presence. The academicians say no, we cannot do anything 
to chill the open and free environment that we have that is so 
important to a quality education. So this is a debate that 
often carries over in budget decisions that presidents and 
senior administrators must make about how to spend the money. 
Do we invest more in cameras and equipment, in police 
personnel? Or do we put more money over in the chemistry 
department?
    For years those of us in the heartland thought that we were 
pretty well immune to mass violence and acts of terrorism. 
Twelve years ago just last week this erroneous assumption was 
shattered when Timothy McVeigh ignited a Ryder truck loaded 
with fertilizer and racing fuel and brought down a Federal 
building, taking the lives of 168 innocent women, children, and 
men, seriously injuring over 500 more in a blast that was heard 
and felt on our campus 18 miles away. No one had ever thought 
about a truck becoming a weapon of mass destruction. Neither 
had law enforcement planned on hijacked airplanes flying into 
buildings and becoming instruments of death, nor a one-room 
Amish schoolhouse becoming a killing zone.
    Certainly September 11 should have been a wake-up call for 
all of us to the potential of mass violence and even the threat 
of terrorism on our campuses. But in reality not much has 
happened on most college campuses in this country in terms of 
increasing our level of security.
    Just one week ago our world again was turned upside down by 
this tragedy that occurred when an individual became a weapon 
of mass destruction with two handguns when he walked into a 
dormitory and a classroom on one of the great campuses in 
Blacksburg, Virginia.
    In the aftermath of all of this the spotlight is shining 
squarely today on college presidents and senior administrators, 
and that question is before us, how safe are our campuses?
    Most universities have a campus police system and certified 
officers, and Mr. Healy represents a great association. They do 
a great job with their campus security. Most of our campus 
police, they do a good job on the routine day-to-day operations 
of the campus, crowd control, preventing theft, dealing with 
small issues. But they are challenged in that rare case when 
there is a major crisis.
    This is why partnerships between the local campus police 
and the city, State, and Federal Government is so important. So 
when an event happens, we can quickly bring in the experts who 
are experienced in dealing with these major situations, can 
take over the jurisdiction on our campuses.
    Colleges and universities are experiencing another 
challenge, and that is the significant rise in the percentage 
of students who are coming to our campus already diagnosed with 
mental illnesses. In coping with this, the universities have to 
balance the privacy rights of the individual student against 
protecting the entire student body. This is a particularly 
complex task.
    Because of this challenge, we must have professional 
counselors on staff. And as presidents, we must fund those 
counseling staffs adequately to handle those students as they 
come to our attention. All university personnel, particularly 
faculty and staff, need to be trained to be able to report 
signs of troubling behavior.
    So often these students are crying out. They are reaching 
out to us, and we do not hear them and we do not see them. But 
when they are identified, the hope is that the students will 
agree to be treated.
    It is in those cases when they do not agree to voluntarily 
submit themselves to treatment that we have this quandary. The 
threshold is set very high as to when we can forcibly remove 
that student from the college campus. This is the gray area. 
This is a problem area that campuses are having to deal with. 
It is one of those difficult situations. And our goal has to be 
to discipline the disruptive behavior, not disparage the 
individual.
    There are severe limits on sharing of information, sharing 
information with other campuses who these individuals may 
transfer to. We transfer problems from campus to campus and do 
not even know it. Sharing information with parents. So 
certainly issues should become a focus of a national debate on 
when we can lift this protective shield of privacy and help 
deal with these troubled students.
    There are issues about communication that we have talked 
about in recent days. How can we best communicate with students 
on our campus?
    Chairman Lieberman. Mr. Webb, if you need a little extra 
time, go ahead and take it. I notice you are moving your pages 
because the clock is moving. So if you need a few extra minutes 
to finish your statement, go ahead.
    Mr. Webb. Thank you, Mr. Chairman.
    I am concerned about the communications methods that we 
have. There is a lot of debate about that. We have to use all 
forms of communication. We have to use old media and new media. 
We know that the students communicate differently. We can use 
those social networks, MySpace and Facebook and text messaging. 
But for those commuter students and those non-traditional-age 
students, perhaps who have not reached campus when a crisis is 
alerted, we need to go back to the old-fashioned radio and TV 
announcements, the alarm systems, the flashing alarm systems 
for those students who may be hearing impaired, the old-
fashioned kind of intercom system, the voice-activated alarm 
systems where we can tell students what to do when there is a 
dangerous situation on our campus.
    Many States now are already reviewing their campus 
security. I know the Governor of Virginia has started that. Our 
own governor, Governor Brad Henry of Oklahoma, created a task 
force last week. He asked our chancellor, Glen Johnson, to head 
that task force. Every college and university in our State will 
be reviewing our security plans.
    And then on May 30, there will be a national summit on 
campus security that will be held at the University of Central 
Oklahoma. And we will have national speakers there. This will 
be sponsored by our State Regents for Higher Education, by our 
American Association of State Colleges and Universities 
(AASCU), the Memorial Institute for the Prevention of 
Terrorism, and the University of Central Oklahoma.
    After Columbine, there was a number of Federal dollars that 
were dispersed for materials. There are some good materials out 
there. They need to be reviewed and updated, and they need to 
be distributed to our campuses once again.
    One great source I mentioned is the Memorial Institute for 
Prevention of Terrorism (MIPT), a trust that was created after 
the Oklahoma City bombing. It is the top website in the world 
on terrorism. I would suggest that the Department of Homeland 
Security may help MIPT put together a link on campus security. 
And then, of course, AASCU is also a great clearinghouse for 
that.
    There are other experiences out there that we can look to. 
I have cited them in my written remarks, the University of West 
Florida for hurricanes, California State University at 
Northridge, Sonoma State, and there are others.
    Mr. Chairman, I cannot guarantee that Amanda will be 100 
percent safe on our campus. I can say that this campus and 
campuses across America are among the safest places that she 
could spend the next 4 years of her life. Much to do with 
Amanda's safety will be the decisions that she makes while she 
is on our campus. But we need her and we need the eyes and ears 
of every faculty member, every staff member, to help us to be 
able to identify individuals who may be troubled and may need 
some help. And I would suggest that we all use that safety 
mantra on the New York subways that if you see something, say 
something.
    And finally, Mr. Chairman and Senator Collins, I assure you 
that every college, every university in America, and every 
parent in America will appreciate any help, any assistance, any 
guidance that this Committee can provide us.
    Thank you very much.
    Chairman Lieberman. Thank you, President Webb, for the help 
you have provided us in your testimony this morning.
    Our next witness is Steven Healy. He is the President of 
the International Association of Campus Law Enforcement 
Administrators and Director of Public Safety at Princeton 
University, where he has served since 2003.
    Chief Healy, thank you for being here, and we look forward 
to your testimony now.

   STATEMENT OF STEVEN J. HEALY,\1\ PRESIDENT, INTERNATIONAL 
ASSOCIATION OF CAMPUS LAW ENFORCEMENT ADMINISTRATORS; DIRECTOR 
             OF PUBLIC SAFETY, PRINCETON UNIVERSITY

    Mr. Healy. Thank you and good afternoon Mr. Chairman and 
Senator Collins.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Healy appears in the Appendix on 
page 57.
---------------------------------------------------------------------------
    As you mentioned, I am the President of the International 
Association of Campus Law Enforcement Administrators (IACLEA), 
an association that represents the campus public safety 
executives at 1,100 institutions of higher education and more 
than 1,800 members. I am also the Director of Public Safety at 
Princeton University.
    IACLEA joins with you in mourning the loss of so many 
students and faculty at Virginia Tech last week. Our shared 
efforts to advance campus public safety must acknowledge and 
honor the students and faculty who perished and were injured 
one week ago today.
    This tragic event has heightened the urgency of our 
continuous efforts to enhance campus public safety at the more 
than 4,000 institutions of higher education serving 15 million 
students. I thank and commend the Committee for holding this 
important hearing.
    This afternoon I hope to accomplish three goals. First, I 
want to assure the Committee and the American people that 
vigorous efforts are underway to develop and implement best 
practices in campus public safety. With our partners, such as 
the International Association of Chiefs of Police, College and 
University Policing Section, and several Federal agencies, we 
are committed to enhancing safety and security on our Nation's 
campuses.
    Second, I hope to paint a picture of the complexity of this 
very critical mission.
    And finally, I hope through my testimony that we can 
identify additional ways to supplement our current efforts.
    Campus public safety continues to evolve into a complex 
responsibility. Our officers must be trained and equipped to 
deal with a variety of issues. These include community 
policing, crime prevention and control, alcohol and substance 
abuse, sexual assault, dating violence, students with mental 
health issues, and campus crime reporting compliance.
    Colleges and universities are traditionally open and 
accessible environments that reflect our free and democratic 
society. We must balance that openness that is the center of 
American higher education with the need to protect students, 
faculty, staff, and visitors. We must assure the safety of our 
students in the classrooms and in their dormitories while 
protecting facilities critical to business, health, and 
national defense. We do this while fostering an environment 
that is conducive to learning, teaching, and research.
    There are a number of critical safety issues facing 
colleges and universities today. At the top of the list are 
issues related to high risk drinking and the use and abuse of 
illegal and prescription drugs. In the year 2001 alone more 
than 1,700 students died from unintentional alcohol-related 
injuries. The problem has reached devastating levels, and 
campus public safety agencies are key partners in addressing 
these critical challenges.
    Homeland security, of course, is also a priority on our 
campuses. It is no secret that campuses have many elements that 
make them attractive targets for terrorism. These include 
international communities, sensitive research materials, 
controversial research projects, and sporting venues that 
accommodate tens of thousands of spectators. These realities 
prompted FBI Director Mueller to identify campuses as soft 
targets for terrorism.
    Campus public safety is provided in a variety of ways. Some 
institutions have sworn armed officers with full police powers 
while others have non-sworn unarmed officers. We work within 
different governing structures and under an array of Federal 
and local laws.
    Given this complexity of the campus public safety 
environment, I am able to report to you that we are continually 
vigilant to the issues of safety and security on our campuses. 
That said, we must continually review and when necessary 
enhance our policies and procedures to address new and emerging 
challenges.
    I would like to discuss areas where we are leading the way. 
I have submitted additional materials that supplement my 
comments and welcome the opportunity to further speak with 
Committee members about these important issues.
    Since 2004, grant support from the U.S. Department of 
Homeland Security has enabled IACLEA to develop a variety of 
training programs and resources for campus public safety 
agencies. Thousands of our officers and first responders have 
attended these training programs. We are currently delivering a 
command and control course that has trained more than 700 
command-level officers in its first year of operation.
    The multiagency response at Virginia Tech last Monday 
underscores how important it is for our campus public safety 
agencies to exercise and train with their law enforcement 
partners outside of campus. IACLEA, together with Texas A&M 
University, has developed a Threat and Risk Assessment Tool to 
assist campus executives in performing an assessment of their 
vulnerabilities and implementing solutions. In doing so, the 
capacity of the university to prevent, protect against, respond 
to, and recover from catastrophic events is enhanced.
    IACLEA has also partnered with the Department of Homeland 
Security and the FBI to produce a lessons learned white paper 
based on the experiences of the Gulf Coast campuses during 
Hurricanes Katrina and Rita. This widely distributed white 
paper sets forth specific recommendations to enhance campus 
preparedness.
    Of course, we also offer educational workshops at our 
annual conferences and other training venues.
    While we currently reach nearly half the traditional higher 
education institutions, we need to ensure that all colleges and 
universities are committed to and have access to high-quality 
information, best practices, and training. Greater Federal, 
State, and local support for campus public safety agencies--
both public and private institutions--would provide additional 
opportunities.
    Campus public safety agencies are not explicitly recognized 
as potential recipients of Federal funds administered by DHS 
and the Justice Department. This presents a major challenge in 
many States when decisions are being made about the allocation 
of formula grant funds. We urge Congress to consider creating a 
dedicated funding stream to strengthen public safety on our 
Nation's campuses.
    In late 2004, the U.S. Department of Justice's Office of 
Community Oriented Policing Services convened a National Summit 
on Campus Public Safety. The summit brought together nationally 
recognized experts on campus public safety, campus risk 
management, and emergency preparedness. A consensus 
recommendation was the need for a National Center for Campus 
Public Safety to support research, information sharing, best 
and model practices, and strategic planning.
    Tomorrow I will be meeting with representatives from the 
Office of Community Oriented Policing Services and the National 
Center for Campus Public Safety Advisory Board to further 
develop the framework for this center. A national center would 
serve as an invaluable resource for all those who have a stake 
in campus public safety and thus, the success of our colleges 
and universities.
    In summary, Mr. Chairman, Senator Collins, and other 
Members of the Committee, adequately protecting our Nation's 
colleges and universities relies on important partnerships. 
There are very critical relationships that we must continue to 
develop and nurture on our campuses and with our Federal, 
State, and local partners. These partnerships are developing 
but must be stronger. In light of the tragic events at Virginia 
Tech, we will work with the FBI and the U.S. Secret Service to 
expand previous studies of middle and high school-aged shooters 
to take a deliberate, campus-focused look at rampage shooting 
incidents at colleges and universities. This examination and 
the lessons learned from it will surely result in the 
identification of best practices.
    IACLEA will also work with the national associations of 
higher education and our other partners to adopt a four-point 
risk management strategy that we believe may help us prevent 
future tragedies. I have outlined those four points in the 
statements provided to you.
    Of particular interest is the need for mass notification 
systems that have the appropriate capacity, security, and 
redundancy. These systems must be capable of reaching our 
community members using several methodologies including 
landline and cellular phones, text messaging, and e-mail. I 
believe this approach will address potential gaps that may 
exist on some campuses and establish a framework for addressing 
future challenges.
    In closing, for the past 49 years, IACLEA has worked to 
advance campus public safety. We understand the vital role our 
colleges and universities play in ensuring democracy throughout 
the world. We will continue to be an advocate for the 30,000 
public safety officers who serve over 4,000 unique communities.
    Thank you for your commitment to this important issue. As I 
mentioned at the beginning of my statement, advancing campus 
public safety is a shared responsibility and requires efforts 
from all of us.
    I would also like to thank the Department of Homeland 
Security, the FBI, the Justice Department, and the Department 
of Education for their support, along with many State and local 
agencies who are our partners. These partnerships are vital to 
fulfilling our promise to ensure that every campus community 
remains safe and open.
    I appreciate the opportunity to contribute to this 
conversation.
    Chairman Lieberman. Chief Healy, thanks very much for some 
very constructive thoughts, which we want to discuss further in 
the question-and-answer period.
    I want to welcome Senator John Warner, our friend and 
colleague from Virginia. Senator Warner, before we go to the 
final two witnesses, would you like to offer an opening 
statement?

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. I thank you for that courtesy, Mr. 
Chairman. I think at this moment I will just listen to the rest 
of the testimony, and in my time I will take a question or two.
    Chairman Lieberman. Very well. Thank you. I am very glad 
you are here.
    Our next witness is Dr. Russ Federman, Director of 
Counseling and Psychological Services, Department of Student 
Health, University of Virginia, where he has served since 2000.
    Dr. Federman, we welcome your presence and your testimony.

    STATEMENT OF RUSS FEDERMAN, Ph.D., ABPP,\1\ DIRECTOR OF 
 COUNSELING AND PSYCHOLOGICAL SERVICES, DEPARTMENT OF STUDENT 
                 HEALTH, UNIVERSITY OF VIRGINIA

    Mr. Federman. Thank you. Distinguished Senators, Senate 
staff, members of the media, and all others present today, as 
clinical psychologist and Director of Counseling and 
Psychological Services at the University of Virginia, I am here 
today to try to provide you with an overview of the current 
state of mental health issues and responses on university 
campuses across the country.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Federman appears in the Appendix 
on page 63.
---------------------------------------------------------------------------
    According to the Department of Education, there were 17.3 
million students enrolled in over 4,500 colleges and 
universities nationwide in 2004. The Chronicle of Higher 
Education projects 2007 enrollment figures at nearly 18 
million.
    From the 2006 National Survey of Counseling Center 
Directors, which surveyed 376 directors across the country, we 
see that 8.9 percent or one in every 11 students has sought 
counseling or psychological help within the past year. When we 
take this 8.9 percent and apply it to the current projected 
enrollment of 18 million, it yields a total of 1.6 million 
students having sought counseling or psychological help during 
the same time period.
    Since 2003 the American College Health Association has been 
conducting the National College Health Assessment. The most 
recent 2006 survey involved the largest randomized sample since 
the survey's inception, and that included 94,806 students from 
public and private universities across the country. The survey 
reports some striking data.
    Within the past year, 94 out of 100 students reported 
feeling overwhelmed by all they had to do; 44 out of 100, 
almost one-half, have felt so depressed it was difficult to 
function; 18 out of 100, or close to one out of every five, 
reported having a depressive disorder; 12 out of 100 had an 
anxiety disorder; 9 out of 100, or one out of every 11, 
reported having seriously considered suicide within the past 
year; 1.3 percent actually did attempt suicide. That's 13 out 
of every 1,000 students.
    If we have 18 million enrolled students, this means 234,000 
suicide attempts every year, 19,500 every month, 642 attempts 
per day. That is staggering.
    Why stop suicide? Well obviously, it saves student lives. 
But we also know that some students become suicidal before they 
become homicidal, before they act on their murderous wishes.
    In the past 10 to 15 years, we have seen a significant sea 
change with university counseling center work. More effective 
psychotropic medication, improved education of primary care 
providers in childhood and adolescent disorders, and gradual 
destigmatization of treatment allow for enrollment of far more 
students today with pre-existing psychiatric disorders than we 
would have seen 10 or 20 years ago. The traditional university 
counseling center has become the university community mental 
health center, where we are faced with high volume, high risk, 
and very serious illnesses.
    The kinds of mental disturbances which yield extreme 
violence are rare. Individuals with this level of disturbance 
typically experience a degree of impairment that is 
inconsistent with requirements of university life. Given the 
ongoing interactions with peers, faculty, and residence life 
staff, when a student's functioning deteriorates within a 
university setting, the student's aberrant behavior is usually 
observable and distressing to others. In most instances, 
university faculty, deans and administrators, in addition to 
university mental health professionals, are notified of these 
instances and appropriate attention and limits are brought to 
bear upon the individual.
    Counseling centers have received increased resources over 
the last 10 years in an effort to keep up with need. But the 
gradual expansion of resources has also corresponded with ever 
increasing student enrollment. From the National Director 
Survey, we see that in 1996 we had a ratio of one clinical 
staff per 1,598 students. This past year, in 2006, we see a 
ratio of one per 1,697. We are not getting ahead of the curve. 
If anything, we are beginning to slide behind.
    With limited resources, counseling centers are usually 
directed toward crisis intervention, stabilization, and brief 
treatment approaches. Many students may need more than brief 
approaches. And when resources are stretched to meet the 
greater needs of more acutely disturbed students, this consumes 
important hours that could be used to treat a larger number of 
students.
    University mental health clinicians devote considerable 
time toward consultation with administrators, deans, faculty, 
staff, and parents creating an interconnected web of support. 
Although confidentiality laws generally prevent university 
counseling centers from sharing confidential information 
without the student's permission, in most instances students 
are willing to provide this permission as they recognize the 
helpful intent of our efforts. It is said that it takes a 
village to raise a child. My experience is that within 
Divisions of Student Affairs, the village is a very interactive 
one where students' well-being is our primary concern.
    Today's hearing exists against the backdrop of a tragic 
event, the recent shooting at Virginia Tech. What we must keep 
in mind is that this was one incident. Its proportions were 
greater and more tragic than we have ever witnessed on a 
university campus, but it was one incident. The frequency of a 
mentally disturbed student perpetrating senseless violence on a 
university campus can almost be counted on one hand. The 
Virginia Tech shooting does not bring our attention to large 
numbers of students falling through the cracks. In actuality, 
it was an extreme exception to the norm, and as such, it 
illustrates that university officials, in collaboration with 
mental health professionals, are doing an exceptional job in 
managing those mentally ill students who do represent a threat 
to university communities.
    The most obvious challenge faced by university counseling 
centers involves funding to adequately meet the increasing 
demand for mental health services across the country. Those 
resources currently available do allow us to be responsive to 
high needs students. However, this capacity is quite variable 
from one university to the next. Most university counseling 
center staffs are overworked. During peak times of the 
semester, we are all barely able to keep up with the influx of 
new students.
    Furthermore, as long as resources are consumed with 
clinical treatment and case management, university counseling 
centers cannot do an adequate job with the preventative work of 
outreach and education. Most directors feel they are only 
scratching the surface with regard to the delivery of truly 
effective preventative educational services. More truly is 
needed.
    We are also faced with the dilemma of how university 
communities can best work together to identify and manage those 
students with complex mental health needs. The issue of 
communication among campus officials pertaining to disturbed 
students is a complex one. Mental health licensing laws 
prohibit clinicians from communicating about patients without a 
signed release.
    To those who are not regularly engaged in mental health 
work, the limitations of patient confidentiality may seem 
frustrating and counterproductive. However, from the point of 
view of the patient, confidentiality is one of the salient 
factors that allow them to reach out in the first place. 
Students need to be able to express their most disturbing and 
frightening thoughts without fears of unwanted consequence. If 
students perceive confidentiality as permeable and easily 
dispensable, then large numbers of students will not come for 
help and our ability to protect the community will become 
further diminished. Confidentiality saves lives. 
Confidentiality does not place more lives at risk. 
Confidentiality is essential to good psychotherapy.
    Having said that, it is clear that university officials 
also need to be able to communicate to one another, and 
sometimes with parents, when student threat of harm reaches a 
threshold where the university community is no longer safe. 
Here lies the rub.
    Federal Educational Rights and Privacy Act of 1974 (FERPA) 
is intended to protect the confidentiality of student records 
and define under what instances parents can have access to 
student information and grades. Access is given ``in connection 
with an emergency to appropriate persons if the knowledge of 
such information is necessary to protect health or safety of 
the student or other persons.''
    This definition is vague and is left to the interpretations 
of individual universities. A more liberal interpretation which 
does allow for open communication of high-risk issues comes 
into direct conflict with mental health ethics and licensing 
codes pertaining to confidentiality. Unless imminent danger to 
self or others is at hand, then clinicians' capacities to 
communicate with other university personnel or even patients' 
families are limited. If and when we do choose to breach 
confidentiality in order to address issues of safety, then we 
risk violating mental health and ethics codes. Essentially, we 
are faced with circumstances where we are damned if we do and 
we are damned if we do not.
    The complex interplay between students' rights to 
confidentiality, university personnel's need to communicate, 
families' inclusion in this communication, and the inherent 
conflicts of our health care, educational, and confidentiality 
policies need serious consideration and review.
    We need to get ahead of the curve with resources devoted to 
mental health. The cost of university education is more than 
many families can bear. We cannot simply add to tuition or 
support fees as a solution.
    In 2003, during the 108th Congress, members of the U.S. 
Senate and the U.S. House of Representatives introduced 
bipartisan legislation that was designed to help campus 
counseling centers provide mental services and meet the 
increasing needs of students. Provisions of this important 
legislation were included as part of the Garrett Lee Smith 
Memorial Act, a law named after Senator Smith's son who 
committed suicide.
    The Campus Suicide Prevention Program exists now as a 
competitive grant program administered by the Substance Abuse 
and Mental Health Services Administration. Funded at $5 
million, it is a small program but one whose value has become 
more evident in the past few years.
    While the Campus Suicide Prevention Program did integrate 
many of the important provisions of the Campus Care and 
Counseling Act, it did not provide the authority that would 
allow campus counseling centers to expand their staff, 
internship, or residency slots, an option that would ensure 
greater availability of clinical services.
    Further, the authorization of appropriations was capped at 
$5 million.
    The Campus Suicide Prevention Program must receive an 
increase in appropriations. The use of funds must be broadened 
to allow centers to strengthen long-term staffing.
    New funding for student outreach, education, and prevention 
is absolutely necessary. We must join the academic community in 
teaching students about healthy lifestyles which truly are the 
strongest protective factors against depression and other 
mental illnesses. Educational efforts must also extend to 
involve student peer connections. Students know students. They 
know when students are doing well and they typically know when 
they are not doing well. We need to do a better job of 
partnering with students and utilizing their own awareness of 
their troubled friends in bringing those students to our 
attention and in facilitating appropriate help.
    The legislature needs to attend to the important intersect 
of HIPAA, FERPA, and confidentiality codes. Greater consistency 
between laws and policies are needed.
    Within recent years, we have also seen numerous initiatives 
and foundations created in response to the growing awareness of 
university mental health issues. Research endeavors and policy 
initiatives such as those being conducted by the Association of 
University and College Counseling Center Directors, the Jed 
Foundation, the National Research Consortium of Counseling 
Centers in Higher Education, and the Center for the Study of 
College Student Mental Health are all essential to our 
understanding and response to student mental health issues. And 
we need more.
    In closing, I appreciate the Committee's attention to these 
pressing problems. We face urgent challenges and unmet needs. 
Our university students are our Nation's future, and we must 
ensure they receive the help they need.
    Thank you very much.
    Chairman Lieberman. Thanks very much, Dr. Federman.
    You touched directly on some Federal laws there and funding 
programs, and I will want to come back and talk to you some 
more about that in the question and answer period.
    Our final witness this afternoon is Dr. Irwin Redlener, a 
pediatrician by training. Dr. Redlener is President and Co-
founder of the Children's Health Fund. He is also Director of 
the National Center for Disaster Preparedness and Associate 
Dean for Public Health Preparedness at Columbia University's 
Mailman School of Public Health.
    His recent book, ``Americans at Risk,'' explored the 
Nation's lack of preparedness for large-scale disasters, 
including the vulnerability of soft targets such as schools.
    Dr. Redlener, we welcome your testimony now.

STATEMENT OF IRWIN REDLENER, M.D.,\1\ DIRECTOR, NATIONAL CENTER 
  FOR DISASTER PREPAREDNESS, ASSOCIATE DEAN FOR PUBLIC HEALTH 
    PREPAREDNESS, MAILMAN SCHOOL OF PUBLIC HEALTH, COLUMBIA 
                           UNIVERSITY

    Dr. Redlener. Thank you very much, Mr. Chairman. Thank you, 
Senator Collins and Senator Warner.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Redlener appears in the Appendix 
on page 72.
---------------------------------------------------------------------------
    Thank you on behalf of a lot of Americans who are depending 
on this kind of leadership to demonstrate how concerned the 
country is officially about the events that occurred like the 
one in Virginia last week.
    I am sure that it is the collective hope of this entire 
panel that we provide you with insights and perspectives that 
may help you meet some of the challenges that will help make 
institutions of higher learning, and schools in general, be as 
safe and secure as possible.
    I really want to focus on some specific recommendations 
that I think might be appropriate for consideration. The first 
is I want to emphasize the point that has been made before, 
that, by and large, American schools and colleges and 
universities are safe places. I think the statistics bear that 
out, even though the emotional impact of these horrible events 
seem to belie the reality. The fact is that most schools and 
campuses are entirely safe. And Amanda should be happy to go to 
your university.
    But like all other places and institutions they are subject 
to an array of hazards and risks and accidents. And the 
millions of children who go to these campuses and the parents 
who send them there need to be sure that we are doing 
everything we can collectively to make sure that these children 
are safe.
    That said, we do many things in our country and our 
society, like wearing seat belts in cars and keeping smoke 
alarms in our homes and taking proper precautions at the 
workplace, all preventive public health strategies that are 
instituted to help make sure that people are safe wherever they 
are. Similarly, I think all of the efforts that you have heard 
discussed today do require a ``public health approach'' to make 
sure that we have done what we can do.
    What this means is that sufficient attention and resources 
need to be devoted to establishing and sustaining a prudent, 
smart, all hazard approach to campus safety without 
compromising a primary commitment to education, and without 
undermining the sense of an open and free campus.
    It is a difficult balance, I should say, to keep this 
perspective of trying to make sure that campuses are safe, 
while underscoring the importance of core values.
    Second, it is my strong opinion that tragedies like what 
occurred at Virginia Tech or Columbine or other sites are not 
about movie violence, video games, Goth culture, or even, in 
most cases, anything resembling reality-based revenge. These 
events are about people with extreme, potentially intractable 
and violent psychiatric disorders. The prevention of these 
catastrophes is therefore about sophisticated detection, 
appropriate intervention, and doing everything possible to keep 
instruments of mass destruction out of their hands.
    This is a difficult task, to be sure. But it is also 
essential that we do what can be done to reduce the possibility 
of more Virginia Techs in the future.
    Third, like any card-carrying public health doctor, I 
believe in prevention as the first priority of action. There 
are things that can be effective in preventing, perhaps not 
all, but some of these terrible tragedies. But when prevention 
fails, all of our response and mitigation strategies and 
systems must be ready, capable of dealing with extreme life-
threatening situations.
    So my recommendations will be in two categories. First, 
improving our ability to prevent catastrophe; and second, 
enhancing our capacity to respond effectively to save lives.
    My fourth observation, though, is that prevention and 
response strategies involve a wide range of players from 
government at all levels to community responders, campus 
officials, students themselves, and concerned family members. 
It is very important therefore to understand the roles of each 
of these sectors because they are different. They need to be 
coordinated; they need to be integrated. What the Federal 
Government needs to do is very different than, say, what State 
governments or campus authorities need to do.
    So, I am going to limit my comments to those actions which 
I think might be helpful for Federal consideration.
    Finally, I believe it is also essential to raise the 
specter of a potential disaster which could become a reality at 
some point in our Nation's future. I am referring to the 
possibility of a planned terrorist attack on one or more of 
America's softest targets, our schools and college campuses. 
These places, like hospitals and public spaces in the 
workplace, are known as soft targets because access is 
relatively simple, absolute security is virtually impossible, 
and the potential for terror-induced, high degrees of society-
wide grief and reaction are assured.
    In fact, the question of children as targets of terrorism 
was addressed at a national conference we held at Colombia in 
the fall of 2005. Our concerns were driven by a well-
established history of terror organizations explicitly 
attacking children throughout history and in many parts of the 
world. We are painfully aware of the horrific 2004 attack on a 
school in Beslan, Russia, where more than 150 children were 
slain before the perpetrators could be neutralized by 
authorities. Although this attack was clearly the work of 
Chechen rebels, there was a continuing suspicion that Al Qaeda 
was somehow involved in the planning, if not the execution, of 
the assault. Our concern, of course, is that the possibility of 
a Beslan-style attack on a U.S. school or campus cannot be 
dismissed.
    Other realities that have gotten our attention include the 
fact that in late 2001, a planned attack on an American school 
in Singapore was thwarted by counterterrorism officials.
    In the fall of 2004, an Iraqi insurgent captured in Baghdad 
was discovered to have had detailed plans and layouts of 
schools in five States.
    And perhaps most unsettling have been the writings by Al 
Qaeda leaders who have articulated a kind of Jihadist mandate 
to attack U.S. citizens in general and children in particular. 
Among the more notable and chilling examples of these threats 
was written by Sulieman Abu Gheith, a key bin Laden lieutenant 
subsequently captured by coalition forces. But his writings 
included quotes like the following, ``We have not yet reached 
parity with America. We have the right to kill 4 million 
Americans, 2 million of them children.''
    All of this suggests that the United States cannot afford 
to be sanguine about the dangers facing our children and young 
people, and we need to be sure that efforts to prevent, 
mitigate, and respond to strategies encompass a wide range of 
potential hazards including, as I have just mentioned, non-
domestic terrorism.
    So as to my specific recommendations, I want to start with 
a couple of comments about what needs to be done as far as 
prevention is concerned. With respect to the prevention of 
major school violence or campus shootings, there are at least 
three major unsolved challenges that really impede our ability 
to make progress here.
    The first is that while the responsibility for responding 
to emotional and psychiatric concerns of students rests 
predominately with campus staff and, to a certain extent, 
parents of affected students, there are seemingly serious and 
pervasive gaps in our knowledge about best practices to most 
effectively manage individuals with disorders that can result 
in the most egregious consequences in terms of violence against 
oneself or others.
    On the other hand, a great deal is already known about the 
identification of such individuals who might be at significant 
risk of committing violence in school. In particular, I want to 
remind us that the U.S. Secret Service, along with the U.S. 
Department of Education, completed a major analysis of all 
shootings on U.S. campuses prior to 2002. That document, which 
is superb, resulted in guidelines with respect to 
identification of high-risk individuals in schools for whom 
urgent intervention is needed. We do not need to reinvent that 
particular piece of work. It is called the Final Report of the 
Safe School Initiative and is a very sophisticated analysis, 
with clear recommendations for actions at the local level and 
in schools.
    Second, and I debated whether to say this or not, but I do 
want to note without prejudice or any political considerations 
that there are major inconsistencies with respect to State and 
Federal regulation of gun purchases that have created gaps in 
the ability to interdict purchases of weapons by individuals 
with serious psychiatric problems. These legal and legislative 
loopholes in gun purchase regulations represent a significant 
threat to soft target populations in schools and college 
campuses and other public spaces.
    The third unresolved situation or issue is that although, 
as Dr. Federman pointed out, many students will allow reporting 
of psychiatric problems to their parents, some, who may be the 
most dangerous, will not allow it. This is a problem that we 
have to face and solve because these are, in fact, adult-aged 
students who have rights as individuals to either give or deny 
permission to talk about their mental health conditions to 
anyone they wish.
    The Federal strategies, I think, to address these issues 
could potentially include the following six recommendations. 
First of all, as Chief Healy pointed out, I think there is a 
great need for a national dialogue and a conference. I suggest 
that this be a federally funded, national conference on the 
state of knowledge regarding identification and intervention 
strategies likely to be most effective in the prevention of 
campus violence.
    The caveat here is that we do not just rehash the work that 
has been already done by the Secret Service, Department of 
Education, and other places.
    Chairman Lieberman. Dr. Redlener, can I ask you, I would 
like to hear the other five, but do them as briefly as you can.
    Dr. Redlener. I understand.
    The second recommendation, already mentioned, is a new 
research center on this subject.
    The third is that we take a very hard look at multiagency 
coordination in the counterintelligence community and make sure 
that they are tracking any potential evidence that someone is 
planning an attack on a U.S. school. I am not sure the extent 
to which that is happening effectively.
    There are other issues that I think I am just going to 
leave to my written response and testimony. But I would say 
that closing critical loopholes in Federal and State gun 
purchase laws would be a reasonable thing to do.
    And finally, I will conclude by saying that a Federal 
grants program to establish six to 10 diverse university and 
public school model programs designed to identify and manage 
instances of potential extreme violence would be very useful as 
sources of information and direction for the country.
    I hope that the terrible event at Virginia Tech is really a 
wake-up call and not just a snooze alarm, which seems to happen 
over and over again. We have an event, we get aroused, we have 
meetings, we have hearings, and then we fall back into 
complacency. It is my hope, and I think all of ours, that we 
are going to see a new, intense focus on preventing violence in 
our schools and campuses.
    Thank you.
    Chairman Lieberman. Thanks, Dr. Redlener. We certainly 
agree with that last statement.
    Ms. Van Syckel. Excuse me, Mr. Chairman, may I have a 
moment? I do not mean to be disrespectful, but I am a parent of 
a child who was violent and suicidal in school, and it is 
important that we did ask the Committee if our organization 
from Connecticut and New Jersey could come and at least testify 
and speak with you before this panel.
    Chairman Lieberman. Let me ask this----
    Ms. Van Syckel. We are parents. We are just as important.
    Chairman Lieberman. I understand. I did not know that. I am 
going to ask you to wait to the end. If there is time, we will 
hear you today.
    I want to assure you this is not the last hearing we will 
hold on this subject.
    Ms. Van Syckel. My daughter did not just become violent and 
suicidal within the school. She was a danger to herself and 
others.
    Today we are mourning a young man in our own community, and 
we will be burying him tomorrow. This hearing should not even 
be held today until parents could also participate and not just 
schools and not just the mental health community.
    Parents care. We love our children. They matter. They are 
not anecdotes. And we are the ones that refuse to give up our 
children. Not the government. Not the mental health community. 
And not the schools. It is we, the parents, who care for and 
love our children. Please give us our parental rights back so 
we can save lives.
    Chairman Lieberman. We will definitely hear you, if not 
today, at a future hearing. I promise you that.
    Let me just ask you to stop for a moment because one of the 
Members----
    Ms. Van Syckel. That is what we see in our schools every 
day.
    Chairman Lieberman. Understood, and we will come back to 
you.
    Senator Warner, I know, has to leave for other pressing 
business, and Senator Collins and I are going to yield to him 
for the first round of questioning.
    Senator Warner. Thank you, Mr. Chairman. And I thank 
Senator Collins.
    We discussed on the floor the desire of you and Senator 
Collins to have this very important hearing, and I am pleased 
to have attended. And I commend you, and I think we have drawn 
on a very distinguished panel to help initiate our study.
    We bear in mind, however, that the primary responsibility 
for education rests with the governors, the State legislatures 
of our 50 States and territories, and we must be careful that 
the Federal Government recognizes that only in rare exception 
should we ever try to depart from our role as advisers, helpers 
in funding, and so forth to direct and mandate to all 50 
States.
    There may well be an area here, particularly with the 
mental health and the dichotomy between Federal and State law, 
in which we can be of service and perhaps others.
    But this was an important hearing, and I was privileged 
last Tuesday to join with the greater Virginia Tech family.
    I want to pick up on one phrase that you used, Dr. 
Federman. I am a graduate of our university. As I look back on 
a long lifetime that I have had, perhaps one of the happiest 
chapters was my education at both Washington and Lee University 
and the University of Virginia. And to listen to your opening 
comments was very chilling about the problems that confront our 
educators and indeed those on campuses today.
    So Mr. Chairman, I say my intention is to take that public 
testimony and draw it to the attention of the Secretary of 
Education. I think other committees and other areas of the 
Congress should take a focus on that and see what we can do to 
help.
    But you said partnering with the students. If I came away 
with one impression on last Tuesday, it was the magnificence of 
that student body of close to some 10,000 or 12,000 in one 
auditorium who were perfectly disciplined, emotionally. Yes 
saddened, but nevertheless secure and with the determination to 
go on and move forward. And that they have done, with the help 
of the parents and others.
    But I come back to the point, a very simple thing. Chief 
Healy, I listened to you very carefully. We have to look at 
what is in hand by way of technology to try to alert students 
to this type of problem. I have had a lot of experience with 
the military and have been posted overseas in years gone and in 
areas where there is high risk and so forth.
    A simple alarm system to be put in place on campuses, 
tested occasionally to make sure it is secure, just a siren 
that would simply alert students there is a problem, go to your 
other resources to determine the specificity of the problem, 
Blackberries or whatever the communication may be. Then let 
them draw on their own instincts. Because these youngsters 
today are good, tough, and solid citizens, and they recognize 
the world is not perfect. And as wonderful as these campuses 
have been and hopefully always will be, there is some element 
of risk.
    So look at what is at hand now and let us think for the 
best. These students will help us. I think we should partner 
with them here on the Committee and get their views maybe in 
the next panel of witnesses. Thank you very much.
    Chairman Lieberman. Thank you very much, Senator Warner, 
for taking the time. I know you made a special effort to be 
with us. I appreciate it.
    Let us go to the panel of witnesses. I want to pick up on 
something that Senator Warner said in terms of the environment 
in which this is happening. It is chilling to hear about the 
increase in mental health problems among college students. It 
is probably a subject for a separate hearing as to why that is 
happening.
    But just in brief, I wonder if Dr. Federman or either of 
the college administrators would want to testify, what is going 
on?
    Mr. Federman. I ask myself that same question every day. I 
do not think I have a simple answer for you. I know that the 
university environment, particularly with a top tier university 
like the University of Virginia, is a very stressful one.
    When I mentioned the statistic that 94 out of 100 students 
feel overwhelmed by all they have to do, that is real. I recall 
statistics that say that 60 percent of students work at least 
part time. And so you combine the academic challenges, the 
part-time work, and simply the transitional stage that late 
adolescence represents where they are not adult and yet they 
are not the child and the kind of transitions they experience 
from one day to the next where the ground is not necessarily a 
stable ground and where the intense feelings they are 
experiencing and the new challenges combined with all the other 
external stresses just represent a very vulnerable time of 
development.
    In tandem with that, you have much more effective 
psychotropic meds so that you have more students attending 
universities today. And I really cannot say with certainty that 
the incidence is greater. What we are seeing is more. But are 
we truly seeing more students with mental illness now or are 
they simply being better identified and more readily coming for 
help? I do not have an answer for that, but it is a question I 
ask myself much of the time.
    Chairman Lieberman. In preparation for this hearing, I 
looked at a 2006 National Survey of Counseling Center 
Directors, which I believe you referred to, in which they 
examined 13 years worth of data.
    I was interested that they concluded not only that the 
numbers have gone up but the complexity and severity of mental 
health problems seen in counseling centers at colleges had 
increased significantly over that period of time. Obviously, 
having anxiety or depression is one thing. Having the number of 
students who are at a point where they may do damage to 
themselves or others is quite something else.
    Is it fair to say that the latter category, in your 
experience or your knowledge of the literature nationally, has 
also gone up? That is, those who are more severely stressed to 
the point of doing damage to themselves or others?
    Mr. Federman. Yes, I can definitely support that, though I 
can do so anecdotally. I do not have hard data to support that. 
But if you look at the survey you are looking at, I believe 
something like 92 percent of directors believe that within the 
last 10 years they are seeing more acute and more serious 
psychopathology. So this certainly corresponds with the 
perception of folks on the front line.
    Chairman Lieberman. President Webb, have you noted that in 
the years you have been a university administrator?
    Mr. Webb. We have this phenomenon, Senator Lieberman, a 
number of clinical psychologists actually recommend to some of 
their patients to go to college and enroll because of the 
counseling centers that are there and the environment that is 
there. So we are getting a lot of referrals to our campus for 
people who are coming in with problems.
    And an issue that we have, and on many campuses, we may 
have one counselor for well over 1,000 students. And for a 
counselor, and these gentleman are experts, to do his job, it 
takes a lot of time to develop a rapport and trust with that 
student, particularly if you have a student that is in danger 
of doing harm to himself and others, to develop that kind of 
confidence where you can recommend that the student voluntarily 
submit himself to counseling.
    And it is that gray area where the student may not have met 
the threshold where you can actually site enough to force that 
student to leave campus.
    This puts the university and the counseling center in a 
real dilemma. If you move too quickly, you are subject to 
liability under Federal law. If you wait too long, you also 
have a situation where you can endanger your entire college 
campus.
    So this is an area which I think we all recommend that we 
need dialogue and we need guidelines as to how to act.
    Chairman Lieberman. I agree.
    Dr. Ward and Mr. Webb, who represent two organizations of 
colleges and universities, what are the best practices with 
regard to setting up a system on a college campus that would 
identify those who are not simply suffering from anxiety or 
depression, serious problems obviously, but who are capable of 
doing damage to themselves or others? What is the way in which 
parents should expect the colleges that they send their kids to 
to be able to identify students who may really be a danger?
    Mr. Ward. Two comments. First of all, I want to just 
amplify the observation about the numbers of students being 
treated. I think 20 years ago either the parents, the students, 
or the universities would never have admitted some of these 
students. It is our capacity, in effect, to meet these needs 
that is making it possible for the students to attend. So some 
of the increase is a reflection of the coping capacity that we 
have developed even though it may be inadequate. It is true in 
other disability areas where we are now obviously meeting the 
needs of the disabled in decisive ways that we would not have 
met 20 years ago.
    To come back to the second question, I think it is the 
question of a communication structure that allows the cross-
wiring of evidence of behavior that is potentially threatening. 
As I mentioned in my oral remarks, we are a very diffuse 
community, very departmentalized, in some respects very 
individualistic. The social networks have to be created by the 
campus itself in some ways that are not naturally there like a 
family.
    So I think one of the challenges is whether there is a 
failsafe reporting system and some one point at which the 
amplitude of these findings can be really addressed. I think it 
is the fact that you have different parts of the enterprise 
knowing a little bit but perhaps nobody knowing the whole. And 
I felt frequently, when it came to my attention as a college 
president, I was not well qualified to make that judgment. I 
was given the pieces. I would need to call in everyone, and it 
usually means you need a meeting of these people. You cannot 
rely on that one person.
    So I do not think we have a communication structure that 
allows the complete filtering of the diffuse kinds of evidence 
that is available unless you have a lead person--maybe it is 
from the student counseling area--who is so convinced this is a 
problem that they are prepared to take this all the way. But I 
do think there is a weak communication structure for sharing 
the evidence.
    Chairman Lieberman. That is not anything we can or should 
mandate by law, but it is certainly something that the 
university community itself should try to organize itself to 
do. I hear you and it sounds like an understandable problem but 
one----
    Mr. Ward. We must address.
    Chairman Lieberman [continuing]. That needs to be addressed 
or else people are put in peril.
    Chief Healy, on your college campus or generally on college 
campuses, are the law enforcement people, the chiefs or 
representatives of campus police, brought in on any regular 
basis in discussions with academic officials or counselors in 
discussing students who there is some reason to be concerned 
may be a danger to themselves or others? And would you 
recommend that be so if it is not so now?
    Mr. Healy. Mr. Chairman, one of the points in the four-
point strategy that I mentioned in my prepared comments is that 
we definitely need to have a methodology, a structure for an 
assessment team. I believe that there are many colleges and 
universities that currently use that approach. I know for a 
fact that the University of Maryland has a very good assessment 
team approach where individuals from student affairs, mental 
health counseling, public safety, and other concerned groups on 
campus come together on a regular basis.
    Chairman Lieberman. To talk about individuals?
    Mr. Healy. To talk specifically about individuals that they 
believe, through whichever avenue the information becomes 
known, present a threat. I think we have to have a structure 
for that, a best practice that we can recommend to 
institutions. Because I think you will see different approaches 
at every single institution. There is not a universally 
accepted or best practice that you will find across 
institutions.
    Chairman Lieberman. Thanks. My time is up for this round.
    Senator Collins.
    Senator Collins. President Webb, let me pick up on the 
point that Senator Lieberman was just making about 
communicating information about troubled students.
    You have a very unusual background for a college president. 
In fact, I wonder if you are unique in the country, of having 
been a law-enforcement officer who went on to be a Commissioner 
of Public Safety, who went on to be a college president. 
Because of that background, you bring an understanding of law 
enforcement as well as the academic world that it is very 
helpful to us as we struggle with these issues.
    I think one of the most difficult issues that you all 
confront is balancing the need to protect the privacy of a 
troubled student versus the security of your campus. And in a 
way that same kind of dilemma is one that this Committee 
wrestles with all the time, whether we are talking about 
screening at airports or the provisions of the Patriot Act. How 
do we strike the right balance between personal privacy and 
freedom versus security in a world of terrorism?
    We have heard about Federal laws today that restrict the 
communication of information, restrict it for very good 
reasons. You want to encourage students to get help, and if 
they feel that confidential medical information is going to be 
shared with either their parents or with university officials, 
they may not get that help. The Family Educational Rights and 
Privacy Act of 1974 was mentioned. One that is more familiar to 
many of us is the Health Insurance Portability and 
Accountability Act (HIPAA), which restricts sharing of medical 
information.
    What is your assessment of current laws? Are we striking 
the right balance?
    Mr. Webb. Senator Collins, you have touched on issues that 
keep many of us awake at night. It is knowing when to act, at 
what point in time, where do you go to get answers?
    It takes more than just seeing a student who is different 
or a student who is odd, a student who is a loner, to be able 
to identify that student and pull that student out. Differences 
make our campuses beautiful and wonderful.
    It is when the law enforcement officer or when the 
counselor sees the student and in their mind and in their gut 
they recognize that this is a troubled student that is 
dangerous. But yet, the student will not agree, cannot consent 
to allow himself to be removed from campus or to receive 
treatment.
    I think we may need to look at some kind of intervening 
authority, perhaps as we did in the Patriot Act, where we can 
go to a third party, perhaps a court or judge, where the 
university can get authority to at least temporarily isolate or 
remove this student for further assessment rather than just 
leave him on the college campus until something erupts.
    This is an issue for which we need the help of the medical 
profession, but we struggle with this issue because there are 
huge liability considerations. And this hesitation that may 
happen on the part of law-enforcement, on the part of our 
campus counselor or president, can result in serious 
ramifications to the student and to other innocent people on 
our campuses.
    Senator Collins. Dr. Federman, do you want to comment?
    Mr. Federman. Yes. I would like to say that I think what 
you are talking about does exist. But it exists uniquely on 
different campuses, not uniformly. To use our campus as an 
example, if we have a student where we perceive typically 
through behavior that they represent danger to the community 
and that individual is not amicable or open to receiving help, 
our dean of students has the authority to initiate an interim 
suspension and to require a psychological assessment at that 
point with recommendations then given to the dean as to how to 
best proceed with the student.
    But the point is that it is not uniformly done across 
campuses. It is something we have put together in recent years, 
and I think many universities would be better off to have 
something like that in place.
    Senator Collins. But you also described it as often being a 
no win situation, that there is a risk of being sued.
    Mr. Federman. Correct.
    Senator Collins. And it just strikes me as a terrible 
dilemma.
    Mr. Federman. You've got it.
    Senator Collins. In these cases, and without going to the 
details of Virginia Tech, which is not the purpose of this 
hearing, but oftentimes in these cases there are warning signs. 
There are people who identified the student as being very 
troubled and in need of help.
    Mr. Federman. The more we can educate the university 
community as to what to be attentive to, what to be mindful of, 
what the resources are. Going back to Senator Warner's comments 
about partnering, I do not want to partner just with students, 
but I want to partner with the whole university community such 
that we become a tightknit web, a tightknit support net such 
that when students are in trouble the community takes 
responsibility to bring that information forward to appropriate 
individuals. Once we have that information at hand, then we can 
begin to look into it further and take appropriate action.
    Senator Collins. Chief Healy, one of the sources of 
information that I learned about in preparing for this hearing, 
and which Dr. Redlener mentioned in his statement, is the work 
that was done primarily by the Secret Service in 2002 which 
seeks to identify warning behaviors. It does a profile of 
someone who may be prone to violence. It strikes me as 
enormously helpful work.
    And yet, I am wondering how prevalent is the knowledge of 
this document? Could you give us your impression, as the head 
of the law enforcement association, are campuses generally 
familiar with the work done by the Secret Service that might be 
so helpful, as Dr. Federman mentions, to identifying troubled 
individuals who need help now?
    Mr. Healy. Senator, I believe that most institutions' 
campus public safety departments are aware of this document. It 
is listed as a resource on the IACLEA website. Keep in mind 
that all institutions do not belong to our association, so 
unfortunately they may not have access to it although it is 
publicly available.
    When we had the shooting at Dawson College in Montreal back 
in September at the beginning of school, there was a lot of 
interest in our association and in colleges and universities 
around the issues of active shooters. At that time, we widely 
distributed that report along with a number of other resources 
that are, again, publicly available resources that speak to the 
issues of active shooters.
    You are right, that is an absolutely wonderful document. 
Every institution should have access to it. One of the things 
on which we are going to work with the U.S. Secret Service is 
to refresh the information that is in that report and to take, 
again, a campus-focused look because that study was primarily 
geared toward incidents of violence that occurred in K through 
12 institutions. We do believe that there are some distinct 
differences between active shooter situations in K through 12 
institutions versus those situations in colleges and 
universities.
    Again, I think that is a good starting point, but I believe 
it needs to be refreshed, updated as appropriate to be more 
applicable to us in colleges and universities.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins.
    Dr. Federman, let me come back to you because I am 
interested in the effect of Federal law or law generally on 
what you can do on the college campuses to protect the 
community.
    In the case that you described, where you have a procedure 
at UVA, where the dean can initiate suspension proceedings and, 
if I heard you correctly, require some kind of psychiatric 
consultation, that is done without a court order, I presume?
    Mr. Federman. Correct.
    Chairman Lieberman. What is the premise for it? In other 
words, is it that the student does not have an absolute right 
to remain at school and so you are creating, as a condition of 
the right to remain, a requirement that they seek some 
counseling?
    Mr. Federman. No. What I would say is that it comes out of 
some mild but helpful coercion. Here is how the process runs. 
At UVA, and at most universities, there are specific standards 
of conduct. They may be called different things. At UVA, they 
are standards of conduct. I think there are 12 of them.
    The second one has to do with individuals who pose a threat 
to the health and safety of the community. And that could 
involve themselves, as well. They are part of the community. 
And if one is behaving in such a way where they are in 
violation of that standard of conduct, then they come under the 
purview of the judicial process. The dean of students can say 
to the student, I am going to bring forward charges that you 
are in violation of standard number two. And if that is the 
case then this is the process you will proceed through.
    An alternate to that would be that we do an interim 
suspension and, during that time where you are not attending 
classes, you proceed with a psychological assessment. You get 
that recommendation back to me and then we look at your 
situation and decide where we go next.
    Chairman Lieberman. Very interesting. So it is a negotiated 
settlement?
    Mr. Federman. Correct.
    Chairman Lieberman. If the student does not accept the 
offer of a negotiated settlement, then presumably the 
university would initiate judicial proceedings?
    Mr. Federman. Correct. And one outcome of that could be 
removal from the university.
    Now keep in mind that just because you remove someone from 
a university community, it does not protect the community. As 
we all have been discussing this afternoon, these are open 
communities. Someone can be removed and come back to that 
community even with more anger than they had prior to the 
incident.
    Chairman Lieberman. That is a very powerful sobering point. 
So that exclusion from the student body is not ultimate 
protection from someone who is truly violent.
    Mr. Federman. The situation is not resolved at the point 
the individual is removed.
    Chairman Lieberman. Chief Healy, you wanted to add 
something?
    Mr. Healy. I just wanted to add that there is also a second 
alternative available in most States where law enforcement 
officers have the authority to involuntarily hospitalize 
someone wherein usually the term is for approximately 24 to 48 
hours and they are forced to undergo some psychiatric 
evaluation.
    I would like to point out that this alternative is 
obviously limited to those institutions who have sworn law 
enforcement officers with the appropriate authority. But it is 
another alternative.
    Chairman Lieberman. That does not require a judicial 
proceeding.
    Mr. Healy. It does not.
    Chairman Lieberman. Many States give law enforcement 
officials the right to do that for a preliminary consultation.
    Mr. Healy. Absolutely.
    Chairman Lieberman. Let me come back because apart from the 
general education, and this panel has been really wonderful at 
this, we naturally have a special concern about the impact of 
existing Federal law on the goal that we all have, which is to 
protect the safety of our college campuses and the people who 
live, work, and study on them.
    I am interested in hearing a little more detail about how 
the Family Educational Rights and Privacy Act (FERPA) and the 
Health Insurance Portability and Accountability Act (HIPAA) 
affect your pursuit of safer campuses. These are complicated 
questions. I do not minimize that. But to the extent that you 
have thoughts about it today, if you had the capacity to 
single-handedly amend either of these laws, what would you do? 
Dr. Ward, do you have any thoughts about it?
    Mr. Ward. Yes and no. I think it is kind of technical. I 
think my colleagues mentioned earlier in the division of mental 
health, it depends on the particular case. One of the 
challenges, I think, that makes it difficult is that generally 
parents are involved until the point of the student arriving on 
the college campus in whatever condition was pre-existing. If 
an alienation occurs between the parent and the student at that 
point, the university community has no capacity to replace that 
connectivity. And if the student then, in effect, makes it 
impossible for us to draw on that resource, which I believe in 
some cases we should, maybe for medical reasons, maybe not in 
others. But that, it seems to me, is very difficult.
    By the way, these crises are not just suicidal. I think the 
issues of alcoholism on campus, which precede--in almost every 
case I dealt with, the student was an alcoholic before arriving 
on campus. This was not something created as a freshman on the 
campus but something which went back. And how the parent, in a 
sense, was aware of that and certainly that distance was now 
created. And yet there were times in which I could not have the 
family reengaged.
    But I do think that there is some set of what one might 
call medical details here as to whether that is or is not 
desirable. And that is what I think makes this quite difficult 
is that you need an assessment team. I was frustrated because I 
often needed seven or eight people in the room with me to make 
these decisions. The decisions were so eclectic and individual 
when you were getting down to this level of disruption, which 
is relatively rare, that this is a great challenge.
    And whether the laws were, in the end, an obstruction, they 
were always there in my general counsel. The general counsel 
was always there saying if you do that you will be sued. So 
that was one voice in the room that felt very strongly that 
there was a vulnerability for liability.
    Chairman Lieberman. That is the dilemma right there. If 
there is something you should do which you think is in the 
interest of the safety of the people on the campus and your 
lawyer tells you you may be sued for doing it.
    Mr. Ward. You tend not to do it.
    Chairman Lieberman. Yes. And then you may be erring on the 
side of caution which is on the side of creating a peril. 
FERPA, as I understand it, says that a college student older 
than 18 has a right to withhold his own information even from 
his family, or maybe most particularly from his family. And 
HIPAA also obviously protects the privacy of health 
information. Although my understanding is that both statutes 
have exceptions that allow disclosure of information in the 
event that the individual is a threat to the health or safety 
of the community. Dr. Federman.
    Mr. Federman. Let me clarify that. If a student represents 
danger to self or others, as a licensed clinician my obligation 
is to ensure that student's safety. And typically that means 
getting him or her into a nearby hospital. Once there, they are 
safe, at least for the day or two that they are there.
    Chairman Lieberman. And everybody else is, too.
    Mr. Federman. Alright. Contacting student's parents is not 
a part of bringing about that rapid resolution of threat and 
safety. And I absolutely understand that parents want to be 
informed. I have two adolescents, one of them at college. If he 
was hospitalized, I want to know.
    But the reality is I would be informed if his or her life 
were in danger, if they were in a coma, if they were seriously 
ill in critical condition, I would be informed. But once we get 
somebody into a psychiatric unit and they are contained and 
protected, then our obligation to communicate beyond that 
stops.
    Chairman Lieberman. Understood, but let me just ask you 
because you talked about it a little bit in your prepared 
testimony, if you could rewrite HIPAA or FERPA, what kinds of 
changes would you make? Are you prepared to answer that today?
    Mr. Federman. Sir, I am not.
    Chairman Lieberman. Please think about it because these are 
very important questions. We want to respect the privacy of 
individuals and yet, ultimately, I think we have a greater 
responsibility to protect the safety of the community.
    Mr. Federman. What I would strive to do is to write them in 
such a way that they do not clash, that we have more internal 
consistency between policies such that they fit together in a 
way that one policy works seamlessly--
    Chairman Lieberman. Because you deal with this every day, 
and I know this is not the normal expertise, this is lawyering 
and legislating, but I think you can do a great public service 
if you have the time to try to do some of exactly what you said 
now for us, which is to see if you can better connect these 
values and these statutes.
    Dr. Redlener.
    Dr. Redlener. The one clarification, especially with FERPA, 
is that it might be helpful to look at the language very 
closely to see specifically what kinds of conditions are 
critical where a college or university might need to make a 
decision but is constrained by potential liabilities. Under 
certain conditions there could be liability protection if the 
university can establish by very clear criteria a situation of 
significant danger to the students or others.
    So in other words, maybe it would be going to a judge and 
getting a court order, provided the college meets certain 
criteria, they are then protected from legal liability.
    But the other quick point to make about this----
    Chairman Lieberman. That is a very interesting idea which 
we ought to consider.
    Dr. Redlener. Not all universities and colleges are located 
near an appropriate mental health facility that can accommodate 
a student or anybody with this kind of psychiatric condition. 
In fact, one piece of the larger context is that the expertise 
to deal with these kinds of problems, where we are talking 
about potentially really serious implications, may not be 
available or accessible. Putting somebody in a general 
community hospital for 24 hours when they are having a major 
psychiatric break does not do much except buy a very little bit 
of time.
    Chairman Lieberman. Thanks, Dr. Redlener, very helpful.
    Senator Collins.
    Senator Collins. Thanks very much, Mr. Chairman.
    Dr. Redlener got exactly to the issue that was going to be 
my final question to this panel. And that is as I listen to the 
testimony, it strikes me that it is going to be hard to define 
more precisely the public safety exception or the health 
exception to the two laws that we have been discussing because 
you cannot possibly come up with all of the scenarios to define 
that more precisely, which is why it is not defined more 
precisely.
    Therefore, it seems to me the answer is, just as Dr. 
Redlener was suggesting, that perhaps we should look at some 
sort of liability protection because when you hear Dr. Ward say 
that your fear is always that you are going to be sued and you 
have the general counsel in the room saying well, you can do 
that, but there is a risk of litigation. Then you do not do it. 
You are going to err on the side of not being sued. And most of 
the time everything is going to work out fine. But there are 
those small number of cases where it is not, it is going to 
lead to catastrophe.
    So it seems to me if we could perhaps look at providing 
some sort of limited liability protection in cases where a 
certain process is followed. You cannot stipulate all of the 
circumstances, but a process is followed. So then you can make 
the decisions without fear of being sued.
    I was going to ask that as my final question of the panel. 
I think I still will, although we already know Dr. Redlener's 
reaction to it. But let me start with you, Dr. Ward, and just 
go across.
    Mr. Ward. I think you have summarized quite effectively. I 
kind of like the solution at the end. I always refer to the 
combination of the lawyers and the doctors who have helped me 
out in these situations.
    But I do think, as a college president, the thing that most 
struck me about this was how well most things worked most of 
the time. It was extreme events, unpredictable, frequently not 
following any rules. I think if you might describe them, they 
were eclectic. The preconditions, even if they were there, 
would not have predicted the violence or the negative outcomes.
    So one of our challenges here is that we may have systems 
that are capable of dealing with 90 or 95 percent of the 
situations, and we want to make sure that when we tinker with 
the system to deal with these extreme events, we do not disrupt 
a system that is meeting needs which are serious but not in the 
sense of the savage or horrific nature we are dealing with.
    And from those events sometimes we can learn a great deal. 
But the specifics of that event may not be as generalizable as 
the general practices that meet the needs of most students. I 
think that strategically, as you deal with crisis management, 
all of the crisis management I was involved in, I think the 
five that I remember most and still remember, and they are 
seared in my mind, I still have difficulty both anticipating 
why we did not anticipate. And even the lessons that followed 
from them, in a sense, might never have prevented those 
specific actions.
    And yet there were many other actions that were problems 
for us that we resolved. There were systemic solutions to them.
    I think extreme events present us with such extraordinary 
challenges in coming up with generalizations. In many cases, 
the most successful way of dealing with extreme events is 
usually good judgment and great leadership rather than the 
systems. They are so unusual.
    So I think we can stretch ourselves to take as much 
advantage as we can, but there is a limit to how far we can 
stretch in dealing with the unpredictable. I think there is an 
underlying sanity for the rest of society in trying to 
recognize that the degree to which we control extreme events is 
extremely small, and it is extremely frustrating to us.
    Senator Collins. Thank you. President Webb.
    Mr. Webb. Dr. Ward and the other panelists have spoken 
effectively about the many mental health concerns that we have 
on all of these campuses. And they are real and they deserve 
this discussion and dialogue.
    But I would hope that the Committee and the Homeland 
Security Department will not overlook the issues that we have 
from a law enforcement standpoint, just a basic security 
standpoint of training that our campus police officers need. 
Mr. Healy's association is an excellent one. They provide 
excellent training for campus police officers. But every 
college campus is not 55,000 students. You have those 
institutions with 5,500 students that are not that well manned, 
and we need support from the standpoint of training.
    Quite frankly, college presidents and senior decisionmakers 
need training on threat assessment and critical incident 
management planning. We need associations like our own AASCU 
and ACE and others to perhaps help us with forums to get the 
president and decisionmakers to know what to do when you have a 
crisis.
    One of my deans approached me last week and she said I am 
not sure I know what to do. If a gunman comes into my building 
and holds a class hostage, what are the protocols? We have a 
code of conduct and protocols, but she needs training and our 
faculty members need training about what to do in times of 
emergency. So I would urge that there also be some 
consideration to--and I am not talking about great sums of 
money--but we need a lot of training out there on our various 
colleges across the country about how to deal with these crises 
that I am afraid in the past we felt like we were immune, we 
were invincible on the college campus to these issues.
    Senator Collins. Chief Healy.
    Mr. Healy. Yes, ma'am. I would just echo President Webb's 
comments. And I think really what he is talking about is 
greater levels of relationship building, partnerships between 
all of the higher education associations. For example, we need 
to work with NACUBO, that is the business officers association. 
And we need to work with ACE to assist in providing that 
training to a wider group of the campus community. Really what 
we are talking about here is our efforts to further engage with 
community policing and making sure that we have the appropriate 
resources to develop these training programs and then to 
deliver them in a very significant way to ensure that they 
reach all 4,200 institutions across the country.
    On the issue of FERPA, I would just say the one issue that 
we would obviously like to see is much greater flexibility in 
the public and personal safety exceptions that are currently in 
FERPA so that we can share information. One of the other things 
that President Webb mentioned was what about sharing 
information from institution to institution. So when someone 
leaves Princeton and goes to Central Oklahoma, they are not 
bringing those problems and I can share that information so 
that they can make a sound admissions decision.
    Senator Collins. Dr. Federman.
    Mr. Federman. Personally, I would sleep better more nights 
if I knew that we had some liability protection. But I also 
want to point out that we are really looking at dual liability 
here. It is not just the liability of breaching 
confidentiality. But what we have seen in some recent high 
profile court cases, such as the Elizabeth Shin case at MIT or 
several years prior to that there was a case at Ferrum College 
where university officials were found liable for not taking 
sufficient action to get an individual help or to protect him 
from his own impulses.
    So we really do face dual liability, either--going back to 
what I said, you are damned if you do, you are damned if you do 
not.
    The choice I'm often faced with is: Am I more willing to 
face suit due to breach of confidentiality or due to lack of 
activity which then results in someone's death? Most of the 
time I choose the latter. But we face it every day.
    The other point, before I end here, is to say that often in 
these kind of processes the devil is in the details. If we put 
together processes where we must be cleared in order to proceed 
and communicate with parents, families, or other individuals, 
we need those processes to be very quickly implemented. We need 
efficacious processes because often we need to act quickly. You 
may get information and within a couple of hours you may need 
to contact individuals, and you do not necessarily have time to 
convene panels and have case review. That could take several 
days.
    Senator Collins. That is a good point, as well. Dr. 
Redlener, any final comments?
    Dr. Redlener. Yes, Senator Collins. The key thing is what 
you originally said as you framed the question to us, which is 
that the drivers for liability protection must be a prescribed 
process. They cannot be assessment driven because of the 
variability of potential situations that are so specific.
    But the truth is that we have other examples where that 
kind of liability protection has already been worked out. I 
would suggest looking at, for example, the child abuse laws 
where children can be involuntarily taken from families. Many 
times, as a pediatrician, I know that parents may deny medical 
care in circumstances that are life threatening to the child, 
and we can get court override of that denial. These kinds of 
events are protected from legal liability.
    So I would look into what exists out there in related 
areas, but keep it process-driven.
    If I could just have a final thought. I know we did not 
have a chance to discuss this in detail, but I hope that you 
all, on this particularly vital Committee, are making sure that 
the intelligence/counterterrorism apparatus is clearly focused 
on the possibility of people out there planning to harm our 
children in a Beslan-style way. My conversations with the FBI 
and other officials have not been comforting in the sense of 
authorities actually paying sufficient attention to this. I 
think there is an extreme vulnerability for American children 
and young people, and I hope we can make sure that they are 
paying appropriate attention.
    Senator Collins. Excellent point. Thank you.
    Mr. Chairman, I just want to thank the panel for absolutely 
terrific testimony, very thoughtful. You bring such expertise 
to our hearing today.
    I also want to commend the Chairman for holding the hearing 
and our staffs for identifying such excellent witnesses. So 
thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Collins, as always, 
for the partnership that allows us to go forward.
    I do want to ask one or two more questions because although 
some of you in your opening statements focused on what I am 
about to ask, and there was a little bit of a response in the 
last question, it is interesting that we spent more time today 
talking about how to help troubled students and identify them--
and some of the problems with law that limits your ability to 
deal with troubled students--than we spent time talking about 
what happens when that all fails and, either from a troubled 
student or, God forbid, a terrorist, violence breaks out on 
campus.
    Dr. Ward, you raised this in your opening statement, and 
President Webb you spoke about it some just a moment ago. It is 
a very difficult process. How do you train a university 
president to be a crisis manager? Because you, President Webb, 
of course, come to the job with very unusual capabilities. A 
lot of university presidents come because they are academics.
    So what I am saying is that in the midst of the multiple 
demands on university administrators, to raise money, to 
oversee an academic program, there comes this crisis management 
capability, very difficult.
    The same is true, Chief Healy, I think President Webb 
talked about it. But what can we do? And again, I do not know 
that there is any role for government, perhaps it is up to your 
association to set some standards for the training of campus 
police, particularly in smaller institutions which do not have 
the resources and therefore may not have the training for their 
personnel.
    I noted that one of the individuals my staff talked to said 
that 90 percent of colleges have an emergency response plan on 
paper. But some questions remain as to whether those plans are 
as robust and actionable as they should be.
    What do you think, Chief Healy? The crisis has begun. Are 
most college campuses in America ready to respond?
    Mr. Healy. Mr. Chairman, I think that I speak with 
confidence that I support the idea that most colleges and 
universities have plans. Have those plans been exercised? Have 
they fully been evaluated? I would say there is probably as 
many answers as there are institutions, 4,200. Every 
institution has engaged in this emergency management and 
planning exercise with a different level of energy.
    And I would say that if there is one thing that I would 
love to be able to accomplish is to ensure that with our 
partners such as DHS, that we develop the capacity to help 
institutions exercise their plans, to run those plans. There is 
some of that capacity that currently exists at the States where 
they will get assistance to help them set up an evaluation, and 
then to grade that evaluation, and therefore the institutions 
know what they need to do to enhance their plans.
    But I think that we are a long way from being able to say 
with any surety that all institutions know how those plans will 
play out in the case of an emergency situation.
    Chairman Lieberman. Let me ask you to respond to a question 
that Senator Warner raised, and I am going to ask you, 
President Webb, to do the same. This, after all, is the 
Homeland Security Committee. We have dealt with the subject of 
communications during a crisis in very intense and direct ways. 
Obviously, in a terrorist attack, one of the great tragic 
shortcomings on September 11, 2001, was that the emergency 
responders, firefighters, and police could not communicate with 
each other. The same happened in a different way in Hurricane 
Katrina.
    I do not know whether your organization has a 
recommendation on this, but what are the best practices? 
Senator Warner said maybe there ought to be an audible siren or 
lights flashing, which is the first indicator to students of 
today to go to their cell phones or BlackBerries. But what do 
you recommend in this regard?
    Mr. Healy. Sir, what we recommend is obviously systems that 
are multi-faceted. And so what Senator Warner mentioned was the 
alarm, the giant voice kind of systems that have been around 
for many years. I believe that we cannot discard those. But I 
also believe that we need to have additional levels of 
sophistication.
    I spoke briefly about mass notification systems that are 
capable of reaching our community members using a number of 
different methodologies: Landline phones, cell phones, 
BlackBerries, text messages, or e-mail messages. Whatever 
system one has. I am fortunate that at my university we have 
such a system. But it has to be able to reach all community 
members using whatever methodologies those members are willing 
to give us.
    We have talked a lot about mass notification systems over 
the past week. What people fail to realize is even if you have 
a system that can reach a person's cell phone number, their e-
mail, maybe two e-mails, a text message, a BlackBerry, or 
whatever device they have, they still have to be willing to 
give you those numbers. So that is an additional challenge that 
we have to face at our institutions. How do we encourage 
primarily students and some staff and faculty members to give 
us cell phone numbers so that we then are able to reach them in 
an emergency situation?
    But this technology is evolving. There are several systems 
out on the market. Unfortunately, there are also a number of 
fly-by-night companies that have come about as a result of this 
tragedy. And so we have to really encourage our institutions to 
be very thoughtful about how they go about selecting a system 
that will really be one of the primary ways that they will be 
able to warn members of the community or to give instructions 
to those members as well.
    Chairman Lieberman. President Webb, what would you add to 
that? What kind of communication system should a college or 
university have after the crisis begins?
    Mr. Webb. There must be multiple forms of communication, 
new media, old media. Chief Healy mentioned the text message 
and the cell phones and the Internet and the campus websites 
and just being aware of the new ways that students communicate 
with each other. That method has to be used.
    But the old forms of communication are also good, too. We 
have fire alarm systems in every building. We are having an 
audio capability placed in every one of those fire alarm panels 
where we can give audio, we can voice-activate messages to 
students as to what to do, evacuate the building, stay in the 
building.
    Throughout the Midwest, and I suspect on most college 
campuses, we are used to storms. We are used to tornadoes. We 
do have sirens. And we need alarms, and we need flashing alarms 
that also alert for hearing impaired students. So we have to 
communicate in multiple ways.
    How can we get the attention of the college presidents and 
the decisionmakers? I am proud that our governor, Governor 
Henry, is saying to every college and university in Oklahoma, 
take a look at your emergency response. Let us review it. This 
is your responsibility. And perhaps more than anything that 
this Senate panel can do, the respective governors can do that. 
And I am sure that is happening in many States around the 
country.
    Chairman Lieberman. Dr. Ward, do you have a final word?
    Mr. Ward. One, is I think you are asking about the college 
president's role. I do think that team leadership is now 
required. It really is an executive role. And so if the chief 
executive does not know how to tap specialized talent and 
create leadership of value from the specialists, it will not 
work, particularly at large universities.
    The second thing is that professional development, which 
did not use to be a big part of either the pre-presidential or 
the presidential experience, is now increasingly valued by 
presidents. All of the associations have both short and longer 
courses, which you call programs, to provide both pre-
presidential experience of what they may face and then actually 
when they are in the presidency, case studies of what would go 
on.
    The most popular sessions at our annual meetings now are 
actually crisis management where people recall from each other 
the case studies of what they did. I would say in post-
September 11, 2001, there is probably almost a quadrupling of 
interest as an agenda issue in these issues. Whether we are at 
the point where we are effective yet, I do not know. But there 
is an exponential increase in interest and I hope competency in 
dealing with these things that has occurred in the last 4 or 5 
years.
    Chairman Lieberman. That is interesting because going back 
to something that Dr. Redlener asked or said, you would say 
that what you are finding at your meetings is that people, 
college administrators, college presidents, are taking 
seriously the possibility that their campus might be the target 
of terrorism?
    Mr. Ward. And of a natural disaster. Or even a health 
disaster. Those are, I think, on the minds of everybody.
    Chairman Lieberman. OK. Do you have any other questions?
    Senator Collins. No.
    Chairman Lieberman. I thank you very much. I echo what 
Senator Collins said. On short notice you have come in, you 
have brought tremendous experience to this table. You gave us 
some very helpful suggestions about some programs that we might 
better support with funding, including programs that relate to 
suicide prevention, perhaps even supporting some of the 
national center ideas that you have suggested, Chief Healy.
    And you invite us, I think the situation invites us to take 
a new look, a thoughtful look at both the two laws we talked 
about, FERPA and HIPAA, and to try to deal with this question 
of fear of legal liability that may inhibit a college 
administrator from taking action that otherwise he or she would 
take, and not to be punitive against a student, but in the 
interest of campus safety.
    I will say in that regard, to say the obvious first, that 
we all know that life is full of risks. And at any time in 
history, no one could say that we are perfectly safe, 
particularly unfortunately post-September 11. We all live with 
that reality.
    But relatively speaking, I think each of you have given me, 
and I hope anyone else who has listened to the hearing, a 
reassuring sense that overall our college and university 
campuses are safe places to be. Not that we couldn't do more to 
try to prevent the kind of extreme acts of violence that we saw 
last week at Virginia Tech. But by and large, compared to other 
places in our society, college campuses are safe. I thank you 
for that reassurance.
    We are going to leave the record of this hearing open for 
15 days if any of you would like to file additional comments or 
we would like to ask you further questions.
    In the meantime, I thank you all for a very important 
contribution to public dialogue and maybe, in some sense, to 
our Nation's recovery in a constructive way from the trauma 
that happened not just at Virginia Tech but to the whole 
country last Monday.
    Thank you very much. The hearing is adjourned.
    [Whereupon, at 4:45 p.m., the Committee was adjourned.]



                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
